                                                                             Report No. DODIG‑2015‑008



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 23, 2014




                     Followup Audit: Enterprise Blood
                     Management System Not Ready for
                     Full Deployment




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
      I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                           Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that supports the warfighter; promotes
        accountability, integrity, and efficiency; advises the Secretary of
                   Defense and Congress; and informs the public.



                                            Vision
        Our vision is to be a model oversight organization in the Federal
        Government by leading change, speaking truth, and promoting
        excellence—a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                                       Fraud, Waste & Abuse

                                       HOTLINE
                                       Department of Defense
                                       dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                              Results in Brief
                              Followup Audit: Enterprise Blood Management System
                              Not Ready for Full Deployment



October 23, 2014                               Findings (cont’d)

Objective                                      product inventories. This occurred because the Program
                                               Executive Officer and the Component Acquisition Executive
Our objective was to determine whether         for Defense Health Agency did not manage the donor,
the system configuration and early             transfusion, and the Theater Blood capability as a DoD
operational assessment for the Enterprise      information technology portfolio. As a result, the Program
Blood Management System (EBMS) will            Executive Officer did not achieve maximum efficiencies for the
meet the system requirements as agreed         Department’s blood program and is at an increased risk of not
to in Recommendations A.4. and B.3 from        fully reaching the overall blood program’s performance goals.
DoD OIG Report No. D‑2002‑010, “Armed
Services Blood Program Defense Blood
Standard System,” and whether these            Recommendations
corrective actions intended to mitigate the    The Program Executive Officer should continue efforts
identified problems.                           to implement corrective actions as agreed to in
                                               Recommendation A.4 and B.3.a of DoD OIG Report
Findings                                       No. D‑2002‑010. The Component Acquisition Executive should
                                               evaluate how EBMS, Theater Blood capability, and any other
The Program Executive Officer for the          DoD information technology blood product capabilities would
Defense Health Clinical Systems could          benefit from being interoperable as an information technology
not demonstrate that the system design,        portfolio, as required.
configuration, and early operational
assessment for EBMS will meet the
requirements as agreed. This occurred          Management Comments and
because the Program Executive Officer was
still in the early stages of the acquisition
                                               Our Response
                                               The Director, Defense Health Agency, responding for the
process for the donor system and did not
                                               Component Acquisition Executive, Program Executive Officer,
initially require the Composite Health Care
                                               and Director, Armed Services Blood Program, fully addressed
System to interface with the transfusion       all specifics of the recommendations, and no further
system. As a result, after 13 years, the       comments are required. Please see the Recommendations
Program Executive Officer’s actions were not   Table on the back of this page.
completed to show that EBMS will meet the
intent of Recommendations A.4 and B.3.a.
The Military Health System leaders deployed
the Theater Blood capability to meet the
intent of recommendation B.3.b instead
of EBMS.

The Program Executive Officer planned
to acquire three stand-alone DoD blood
product information technology capabilities
that will manage information about the
donors, donations, transfusions, and blood
                                                Figure. Scanning inventory.
                                                Source: Af.mil
Visit us at www.dodig.mil


                                                                    DODIG-2015-008 (Project No. D2013-D000XD-0207.000) │ i
           Recommendations Table
                                                                Recommendations       No Additional
                                    Management                  Requiring Comment   Comments Required
             Component Acquisition Executive for Defense                            B.1, B.2, B.3
             Health Agency
             Program Executive Officer for the Defense Health                       A.1, A.2
             Clinical Systems
             Director, Armed Services Blood Program                                 A.1, A.2




ii │ DODIG-2015-008 (Project No. D2013-D000XD-0207.000)
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350‑1500


                                                                                 October 23, 2014

MEMORANDUM FOR DISTRIBUTION ASSISTANT SECRETARY OF DEFENSE FOR
               HEALTH AFFAIRS

SUBJECT:	 Followup Audit: Enterprise Blood Management System Not Ready for Full
          Deployment (Report No. DODIG-2015-008)

We are providing this report for your information and use. The Program Executive Officer
for the Defense Health Clinical Systems could not demonstrate after 13 years that officials
implemented the necessary actions to mitigate the identified system problems as agreed.
Specifically, these were interface problems with the Composite Health Care System and double
counting of inventory. The Component Acquisition Executive for Defense Health Agency also
did not manage the Enterprise Blood Management System or Theater Blood capability as a
DoD Information Technology portfolio.

We considered management comments on the draft report when preparing the final
report. Comments from the Director, Defense Health Agency addressed all specifics of the
recommendations and conformed to the requirements of DoD Directive 7650.3; therefore, we
do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604‑8905 (DSN 664-8905).



                                               Amy J. Frontz
                                               Principal Assistant Inspector General
                                                for Auditing




                                                                                          DODIG-2015-008 │ iii
           Contents
           Introduction
           Objective__________________________________________________________________________________________1
           Background______________________________________________________________________________________1
           Defense Blood Standard System________________________________________________________________2
           Enterprise Blood Management System________________________________________________________2
           Theater Blood Capability________________________________________________________________________4
           Review of Internal Controls_____________________________________________________________________4

           Finding A. Enterprise Blood Management System
           Will Not Be Ready for Full Deployment______________________________6
           Prior Audit Summary____________________________________________________________________________6
                Finding A: Recommendation A.4___________________________________________________________7
                Finding B: Recommendation B.3___________________________________________________________7
                Agreed Upon Actions_ ______________________________________________________________________8
           Agreed‑Upon Actions Not Demonstrated______________________________________________________8
                Mitigation of Double Counting Awaiting Deployment of Donor System________________8
                Interface with the Composite Health Care System_______________________________________9
           Conclusion________________________________________________________________________________________9
           Management Comments on Background and Finding A and Our Response________________9
           Recommendations, Management Comments, and Our Response_ ________________________ 10

           Finding B. DoD Management of Blood Products
           Information Technology Capabilities May Have
           Missed Opportunities to Leverage Efficiencies_______________ 12
           DoD Blood Product Information Technology Capabilities Acquisition____________________ 12
                DoD Blood Products Information Technology Portfolio_______________________________ 13
                Interface of DoD Blood Product Information Technology Capabilities ______________ 15
           Management Actions Taken on the Transfusion System___________________________________ 16
           Management Comments on Background and Finding B and Our Response______________ 16
           Recommendations, Management Comments, and Our Response_ ________________________ 17




iv │ DODIG-2015-008
Contents (cont’d)
Appendix
Scope and Methodology_______________________________________________________________________ 19
Use of Computer‑Processed Data _ __________________________________________________________ 20
Use of Technical Assistance___________________________________________________________________ 20
Prior Coverage _________________________________________________________________________________ 20

Management Comments
Defense Health Agency________________________________________________________________________ 21

Glossary___________________________________________________________________________________ 25
Acronyms and Abbreviations______________________________________________ 27




                                                                                                      DODIG-2015-008 │ v
                                                                                           Introduction




Introduction
Objective
Our audit objective was to determine whether the system configuration and early
operational assessment for the Enterprise Blood Management System (EBMS) will
meet the system requirements as agreed to in Recommendations A.4 and B.3 of
DoD OIG Report No. D‑2002‑010, “Armed Services Blood Program Defense Blood
Standard System,” October 22, 2001, and whether these corrective actions intended
to mitigate the identified problems.

Military Health System (MHS) leaders and the Services replaced the Theater
Defense Blood Standard System (DBSS) with the Theater Blood capability instead
of EBMS to meet the intent of Recommendation B.3.b. Please refer to the Appendix
for additional details about our scope and methodology. Also, see the Glossary for
the definition of key terms.


Background
The Armed Services Blood Program (ASBP) is a military Services and unified
Commands joint operation. The ASBP Office (ASBPO) manages the DoD blood
program under the authority of the Secretary of Defense through the Assistant
Secretary of Defense for Health Affairs (ASD[HA]) and the operational control of
the Joint Chiefs of Staff. ASBPO’s mission is to provide quality blood products and
services for all customers in peace and war with specific responsibilities for:

     •	 overseeing operations of the blood program during contingencies;
     •	 coordinating day‑to‑day activities of ASBP for the Army, Navy, and
        Air Force Service blood programs; and
     •	 coordinating theater blood program matters with the Combatant
        Commands.

The Deputy Secretary of Defense established the Defense Health Agency (DHA)
on October 1, 2013. DHA is responsible for shared services, functions, and
activities of the MHS. DHA’s role is to accomplish greater integration of health care
delivery systems by achieving medical readiness, improving health, enhancing the
experience of care, and lowering healthcare costs.




                                                                                        DODIG-2015-008 │ 1
Introduction



                 Under DHA, the Program Executive Officer for the Defense Health Clinical
                 Systems (PEO[DHCS]):

                        •	 produces and delivers products that support the MHS;
                        •	 supports health care operations through design, development, test,
                           evaluation, and deployment of medical information systems; and
                        •	 manages the DBSS and EBMS information systems and the Theater Blood
                           capability.

                 Defense Blood Standard System
                 DBSS is an MHS legacy blood product information management system. According
                 to Report No. D‑2002‑010, the Food and Drug Administration (FDA) cleared this
                 system as a medical device. According to PEO(DHCS) officials, it has an estimated
                 life‑cycle cost of about $217.5 million.1 The report stated that blood program
                 organizations used the system to maintain and track blood donations and blood
                 product inventories, as well as to provide transfusion service management and
                 system administration.

                 According to Report No. D‑2002‑010, ASD(HA) officials developed Theater DBSS
                 as an interim solution pending the release of the Theater Medical Information
                 Program. The report stated that this program provided theater commanders
                 with all the functional capabilities of DBSS in a theater environment. Specifically,
                 PEO(DHCS) officials stated that Theater DBSS was a database that accounted for
                 inventory for the blood support detachments in Iraq and Afghanistan.


                 Enterprise Blood Management System
                 According to the Acquisition Program Baseline, EBMS is a mission essential
                 automated information system. EBMS is comprised of two different FDA cleared
                 medical devices, commercial off‑the‑shelf products–the Blood Donor Management
                 System (donor system) and the Blood Management Blood Bank/Transfusion
                 Service (transfusion system). The Component Acquisition Executive (CAE) for
                 DHA considered these two systems as a single Defense acquisition category III
                 automated information system. 2 According to the transfusion system Business
                 Case Analysis, EBMS will enhance the DoD blood program capabilities for blood
                 banking and transfusion services through the improved integration of blood
                 products inventory management and shipment availability. The CAE for DHA is the
                 milestone decision authority for EBMS.

                 	1	
                     PEO(DHCS) officials stated that they did not have substantiating records for the cost from FY 1991 through FY 2010
                     ($174 million) because they no longer have access to verifiable cost details.
                 	2	
                     Acquisition categories are established to facilitate decentralized decision‑making and execution and compliance with
                     statutory imposed requirements. Acquisition category III automated information systems are not designated as special
                     interest nor meet the threshold of a major system (categories I or II).



2 │ DODIG-2015-008
                                                                                                                  Introduction



The donor system’s design and requirements documents state that it would support
donor screening, registration, and manufacturing functions. The transfusion
system’s design and requirements documents state that it is used to organize the
management of blood bank and transfusion services. The transfusion system will
interface with outside systems such as Composite Health Care System (CHCS). The
main functions of the transfusion system are to manage:

         •	 blood products inventory levels and availability;
         •	 blood products test results;
         •	 pre‑transfusion and compatibility test results;
         •	 patient information;
         •	 blood bank and services reports across the enterprise; and
         •	 blood bank user accreditation and training in the use of the application.

The donor system would correct the double counting inventory problem and the
transfusion system would mitigate the CHCS interface problem. The current life
cycle cost estimate for EBMS is about $245.5 million. According to PEO(DHCS)
officials, the donor system would cost about $123.2 million3 and the transfusion
system would cost about $122.3 million.4

Figure 1 shows bags and vials of blood waiting to be processed during an
ASBP blood drive.




  Figure 1. Processing of bags and vials of blood.
  Source: Armylive.dodlive.mil



	3	
      PEO(DHCS) officials did not have any acquisition documentation to support this estimate.
	4	
      The estimated life cycle costs were from the approved transfusion system Acquisition Program Baseline.




                                                                                                               DODIG-2015-008 │ 3
Introduction



                 Theater Blood Capability
                 In 2011, MHS leaders and the Services replaced Theater DBSS with the Theater
                 Blood capability. This capability is a module under the Theater Medical Data
                 Store and Medical Situational Awareness in Theater. According to PEO(DHCS)
                 officials, the Theater Blood capability addresses Combatant Command medical
                 assets requirements for the U.S. Central Command. ASBPO official further stated
                 they deployed the Theater Blood capability to locations in U.S. Central Command
                 and ships afloat. The officials are considering deployment to locations in Pacific
                 Command and U.S. Southern Command. According to officials, the capability is
                 a web‑based IT product used to track blood products in theater. Specifically,
                 theater‑based medical treatment facilities use it to track blood product inventory,
                 collection, and disposition. Officials could not provide the estimated costs for
                 this capability.

                 The FDA blood establishment computer software criteria do not apply to
                 the Theater Blood capability. According to PEO(DHCS) officials, FDA’s Blood
                 Establishment Computer Software criteria applies to software designated for use in
                 a blood establishment and is intended for use in the diagnosis of disease or other
                 conditions in donors, or in the prevention of disease in humans by preventing the
                 release of unsuitable blood and blood components. Since medical personnel located
                 in theater use this capability only to track the blood product inventory, no FDA
                 medical device clearance is necessary.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal
                 control weaknesses related to the EBMS acquisition process. Specifically, the:

                      •	 PEO(DHCS) could not demonstrate that EBMS will meet the
                         requirements as agreed to in Recommendations A.4 and B.3.a of DoD OIG
                         Report D-2002‑010.
                      •	 PEO(DHCS) planned to acquire three stand-alone DoD blood product
                         information technology capabilities instead of a DoD IT portfolio.




4 │ DODIG-2015-008
                                                                                           Introduction



     •	 CAE for DHA and PEO(DHCS) did not approve several critical acquisition
        documents for the transfusion system before entering milestone C of the
        DoD business capability model as required by DoD Instruction 5000.02;
        however, PEO(DHCS) officials provided the signed documents during this
        audit.

We will provide a copy of the report to the senior officials responsible for internal
controls in ASD(HA).




                                                                                        DODIG-2015-008 │ 5
Finding A




                 Finding A
                 Enterprise Blood Management System Will Not Be
                 Ready for Full Deployment
                 The PEO(DHCS) could not demonstrate that the system design, configuration, and
                 early operational assessment for EBMS will meet the requirements as agreed to
                 in Recommendations A.4 and B.3.a of DoD OIG Report D-2002‑010. This occurred
                 because PEO(DHCS) officials were still developing the donor system requirements
                 and initially deployed the transfusion system as a stand-alone system that did
                 not interface with CHCS. As a result, after 13 years the PEO(DHCS) officials’
                 actions still were not complete to show that EBMS will meet the intent of
                 Recommendations A.4 and B.3.a.




                 Prior Audit Summary
                 According to DoD OIG Report No. D‑2002‑010, DBSS implementation was not
                 adequate to meet ASBP mission needs and, as a result, the use of DBSS affected the
                 asset accountability, increased workload and risk of inventory errors, and possibly
                                        resulted in the inappropriate release of blood product. Also,
                                            results indicated that the deployment and use of DBSS
                        As a result, a        was not consistent throughout DoD. Specifically,
                     consistent blood
                                                the audit found that only 46 percent of the fixed
                   product management
                     was not achieved,           facilities used the CHCS interface; 54 percent of
                 workload increased, and         the Theater DBSS laptops were ready for use; and
                 DoD may not achieve total       the Theater DBSS reporting to Joint Medical Asset
                  asset accountability of       Repository (JMAR) was not complete. As a result,
                      blood products.
                                              a consistent blood product management was not
                                            achieved, workload increased, and DoD may not achieve
                                       total asset accountability of blood products.




6 │ DODIG-2015-008
                                                                                            Finding A



Finding A: Recommendation A.4
DoD OIG Report No. D‑2002‑010 stated that DBSS and JMAR
                                                                       DBSS
Project Offices did not ensure accurate reporting from              and JMAR
DBSS to JMAR. Specifically, there was an instance when           Project Offices
JMAR did not accurately reflect a blood product shipment         did not ensure
that was received by a blood program organization. This        accurate reporting
                                                                  from DBSS to
potentially could have resulted in a temporary double
                                                                      JMAR.
counting of inventory.

Recommendation A.4 stated that the JMAR and DBSS Project
Offices should modify their system, as necessary, to ensure that in‑transit inventory
is not counted twice. ASD(HA), ASBPO, the Army, and the Navy concurred with the
recommendation. ASD(HA) stated that appropriate action was initiated to ensure
in‑transit inventory was not counted twice in JMAR.

Finding B: Recommendation B.3
DoD OIG Report No. D‑2002‑010 stated that the blood program offices and the
DBSS Project Office did not adequately oversee the implementation of the CHCS
                       interface with DBSS. The report further stated that users
        The blood
                           found operational problems that included having to
    program offices          re‑enter data or create duplicate in‑transit records.
      and the DBSS            The blood program offices and the DBSS Project Office
  Project Office did not      also did not adequately oversee the implementation of
 adequately oversee the
   implementation of
                              the Theater DBSS hardware and software. As a result,
   the CHCS interface         Military Departments identified hardware and software
       with DBSS.            problems with the Theater DBSS deployment.

                      Recommendation B.3 stated that the Service blood program
offices, the ASBPO, and the DBSS Project Office jointly:

     a.	 Develop and implement a plan to correct the software deficiencies
         identified with the interface between the CHCS and DBSS and establish
         a time frame for the Military Departments to implement the interface at
         military treatment facilities.
     b.	 Develop and implement a plan to correct the hardware and software
         deficiencies identified with the Theater DBSS, or find another
         means to meet the needs of the unified commands for a blood
         management capability.

ASD(HA), ASBPO, and the Services concurred with the recommendation. ASD(HA)
stated that the organizations were planning appropriate actions.




                                                                                      DODIG-2015-008 │ 7
Finding A



                 Agreed Upon Actions
                 For Recommendations A.4 and B.3.a, ASD(HA) agreed to modify DBSS in 2001 to
                 ensure the accurate reporting of JMAR to resolve double counting of inventory
                 and the ability to interface with CHCS. However, officials were unable to modify
                 DBSS. In 2009, MHS leaders and the Services decided to replace DBSS with EBMS
                 to prevent the double counting of inventory and correct the system interface
                 problems. In 2010, ASD(HA) issued a denial of authority to operate DBSS based on
                 security vulnerabilities. The denial of authority was because DBSS did not meet
                 the required accreditation activities to obtain a full authorization to operate the
                 system and its overall security risk was high.


                 Agreed‑Upon Actions Not Demonstrated
                                   Although the PEO(DHCS) plans to replace DBSS with EBMS, the
                          The           PEO(DHCS) could not demonstrate that EBMS will mitigate
                      PEO(DHCS)           problems identified in the DoD OIG Report No. D‑2002‑010.
                       could not           The donor system is in the early stages of the acquisition
                   demonstrate that
                  EBMS will mitigate
                                            process to verify whether it will mitigate problems with
                 problems identified in     double counting of inventory (Recommendation A.4),
                  the DoD OIG Report       and PEO(DHCS) officials initially deployed the
                    No. D‑2002‑010.
                                          transfusion system without an interface with CHCS
                                        (Recommendation B.3.a).

                 Mitigation of Double Counting Awaiting Deployment of
                 Donor System
                 According to PEO(DHCS) officials, the donor system is in the early stages of the
                 acquisition process and has not received a Milestone designation. PEO(DHCS)
                 officials planned the early operational assessment for the first quarter of FY 2015,
                 the operational test for the second quarter FY 2015, and the full deployment for
                 the first quarter of FY 2016. 5 PEO(DHCS) officials indicated that the donor system
                 will have the capability to obtain the necessary tracking information of blood
                 products in real time and the donor system would eliminate the need to use JMAR
                 for tracking blood products. We also observed a system capabilities presentation
                 by the vendor that indicated that the system would facilitate real‑time data and
                 track blood product inventory. However, we could not substantiate the system’s
                 capabilities. There are no specifics as to how the donor system will facilitate
                 real‑time data and track blood product inventory in the Interface Control, Software
                 Requirements Specification, and the Preliminary Design Review/Critical Design


                 	5	
                       In response to the draft report, DHA indicated that they have revised deployment date for donor system from the first
                       quarter to the fourth quarter of FY 2016.




8 │ DODIG-2015-008
                                                                                           Finding A



Review documents. Therefore, the donor system is not far enough along the
acquisition process to determine whether its requirements will address or mitigate
the in‑transit blood product inventory problems.

Interface with the Composite Health Care System
The PEO(DHCS) initiated the deployment of the transfusion system on
February 27, 2014, as a stand-alone system. This is because
a senior MHS official approved the transfusion system,
                                                                        The
in 2009, as a stand-alone system to expedite the process.          PEO(DHCS)
PEO(DHCS) officials obtained a waiver for the transfusion          initiated the
system not to interface with CHCS until FY 2015. In             deployment of the
                                                              transfusion system on
the meantime, technicians are required to manually              February 27, 2014,
input patient information into the transfusion system.           as a stand-alone
PEO(DHCS) officials explained that technicians have been              system.
manually inputting information since 2010. According to
PEO(DHCS) officials, EBMS’s capabilities surpass the value of
the system as a whole compared to the impact of manually entering the patient
information into the transfusion system. Therefore, PEO(DHCS) officials were not
able to demonstrate whether the transfusion system would mitigate the system
interface problems with CHCS as agreed to in Recommendation B.3.a.


Conclusion
PEO(DHCS) officials could not demonstrate whether replacing DBSS with EBMS
will mitigate the problems identified in DoD OIG Report D‑2002‑010. PEO(DHCS)
officials were still implementing the corrective actions for Recommendations A.4
and B.3.a. We will continue to monitor and consider future audits of EBMS and the
Theater Blood capability.


Management Comments on Background and Finding A
and Our Response
The Director, DHA, provided the following comments related to the Background
and Finding A. For the full text of the Director’s technical comments, see the
Management Comments section of the report.

     •	 Capitalize the “Theater Medical Information Program” title in the
        second paragraph under the Defense Blood Standard System section
        of the Background.




                                                                                     DODIG-2015-008 │ 9
Finding A



                       •	 Add “Theater Medical Information Program–Joint information system” in the
                          paragraph under the Theater Blood capability section of the Background.
                       •	 Change the title for Finding A to “PEO(DHCS) Could Not Demonstrate That
                          EBMS Will Meet the Requirements As Agreed” because the title appears
                          unrelated to the Finding A’s conclusion.
                       •	 Revise the donor system’s deployment date to the fourth quarter of FY 2016 in
                          the paragraph under the Mitigation of Double Counting Awaiting Deployment of
                          Donor System section of Finding A.

                  Our Response
                  We capitalized the “Theater Medical Information Program” title and added a
                  footnote in the paragraph under the section in Finding A titled, “Mitigation of
                  Double Counting Awaiting Deployment of Donor System” to show the planned date for
                  the donor system’s deployment. However, we did not make any further changes
                  to Finding A or the Background of the Report. We did not add “Theater Medical
                  Information Program–Joint information system” in the Background because we
                  did not review or verify the system as part of our audit since it was outside of our
                  announced objective. Also, we did not change the title of Finding A, “Enterprise
                  Blood Management System Will Not Be Ready for Full Deployment,” because
                  the title is descriptive of the finding and the conclusion that EBMS could not
                  demonstrate it addressed what was agreed to in Recommendations A.4 and B.3 of
                  DoD OIG Report No. D-2002-010.


                  Recommendations, Management Comments, and
                  Our Response
                  Recommendation A
                  We recommend that the Program Executive Officer for the Defense Health
                  Clinical Systems, in coordination with the Director for Armed Services Blood
                  Program, continue efforts to:

                       1.	 Ensure that in‑transit inventory is not counted twice in the
                           Enterprise Blood Management System.
                       2.	 Develop and implement the Blood Management Blood Bank
                           Transfusion Services interface capability with Composite Health
                           Care System.




10 │ DODIG-2015-008
                                                                                           Finding A



Director, Defense Health Agency Comments
The Director, DHA, responding for the PEO(DHCS) and the Director, ASBP, agreed,
stating that the PEO(DHCS), in coordination with the Director for ASBP, will
continue to develop and implement the transfusion system interface capability with
CHCS or its replacement, as required. He stated that the CHCS interface will be
implemented by the fourth quarter of FY 2016.

Additionally, the Director stated that the PEO(DHCS) will continue to ensure that
no issues will arise with double counting of in-transit inventory in EBMS. The
Director further stated that the PEO(DHCS) planned for the deployment of the
donor system for the fourth quarter of FY 2016.

Our Response
The response from the Director addressed all specifics of the recommendations,
and no further comments are required.




                                                                                    DODIG-2015-008 │ 11
Finding B




                 Finding B
                 DoD Management of Blood Products Information
                 Technology Capabilities May Have Missed
                 Opportunities to Leverage Efficiencies
                 The PEO(DHCS) planned to acquire three, stand-alone, DoD blood product
                 information technology (IT) capabilities6 that will manage information about the
                 donors, donations, transfusions, and blood product inventories. This occurred
                 because the PEO(DHCS) and the CAE for DHA did not manage the donor,
                 transfusion, and the Theater Blood IT capabilities as a DoD IT portfolio as required
                 by DoD Instruction 8115.02, “Information Technology Portfolio Management
                 Implementation,” October 30, 2006. As a result, the PEO(DHCS) and the CAE for
                 DHA may not achieve maximum efficiencies for the Department’s blood program.
                 The program is also at an increased risk of not fully reaching the blood program’s
                 overall performance goals that ultimately could negatively impact the warfighters,
                 veterans, and their families.


                 DoD Blood Product Information Technology
                 Capabilities Acquisition
                 The ASD(HA) did not comply with DoD regulatory requirements when acquiring
                 DoD blood product IT capabilities. Specifically, when replacing DBSS, the
                                       ASD(HA) did not follow DoD Instruction 5000.02, “Operation
                            The           of the Defense Acquisition System,” December 8, 2008;7
                          ASD(HA)
                                             DoD Directive 8115.01, “Information Technology
                      did not consider
                   maximum efficiencies       Portfolio Management,” October 10, 2005; and DoD
                   for the Department’s        Instruction 8115.02, “Information Technology Portfolio
                     blood program by         Management Implementation,” October 30, 2006, by
                     not considering a        acquiring three different blood product IT capabilities
                        potential IT
                                             that would not interface with each other. According to
                         portfolio.
                                          PEO(DHCS) and ASBPO officials, there was no operational
                                       need for the IT capabilities to interface with each other.
                 The ASD(HA) did not consider maximum efficiencies for the Department’s blood
                 program by not considering a potential IT portfolio.




                 	6	
                     For the purposes of this finding, we will refer to the donor system, transfusion system, and the Theater Blood capability
                     as DoD blood product IT capabilities.
                 	7	
                     DoD Instruction 5000.02 implements DoD Directive 5000.01, “The Defense Acquisition System,” certified current
                     as of November 20, 2007. DoD Instruction 5000.02 has been updated by an Interim DoD Instruction 5000.02, dated
                     November 25, 2013, which cancelled the 2008 version, with the exception of Enclosure 9.

12 │ DODIG-2015-008
                                                                                                Finding B



DoD Blood Products Information Technology Portfolio
The ASD(HA) officials planned to acquire the DoD blood product IT capabilities
as stand-alone IT capabilities rather than integral parts of a DoD enterprise‑wide
capability for managing the DoD blood program. DoD Instruction 5000.02
establishes a management framework for translating capability needs and
technology opportunities, based on approved capability needs, into stable,
affordable, and well‑managed acquisition programs that include automated
information systems. It states that the materiel development decision review is the
formal entry point into the acquisition process in where multiple DoD communities
assist in formulating operational goals and would consider potential materiel
solutions. DoD Directive 8115.01 mandates portfolios to be used as a management
tool in each of the Department’s decision support systems to include the Defense
Acquisition System (DoD Instruction 5000.02).

DoD Directive 8115.01 requires that the Heads of the DoD Components establish
the Component portfolio so that IT investments align to Mission Area. It further
requires that the head of the Component manage IT investments as portfolios to:

         •	 ensure IT investments support the Department’s vision, mission, and goals;
         •	 ensure efficient and effective delivery of capabilities to the warfighter; and
         •	 maximize return on investment to the Enterprise.

According to DoD Instruction 8115.02, 8 the Department has moved at an
accelerating pace toward capabilities‑based planning, resource allocation, and
acquisition, based on the principles of joint interoperability and network‑centric
warfare. The instruction states that historically, IT resources have been managed
and acquired as stand‑alone IT capabilities rather than as integral parts of a
net‑centric capability having an effect of allowing duplicative investment in systems
or platforms that would deliver the same or similar capabilities. According to
the instruction, IT portfolio management is a key enabler of information sharing
and it provides a balanced strategy based on enterprise strategic planning
and integrated architectures. The instruction addresses that in order for an
effective implementation, the IT portfolio management strategy requires a
robust governance structure, enabled by consistent, repeatable processes at
all levels to foster greater management efficiency, better communications, and
effective collaboration.




	8	
      DoD Instruction 8115.02 implements DoD Directive 8115.01.




                                                                                         DODIG-2015-008 │ 13
Finding B



                 In addition, in a memorandum dated March 11, 2013, “Implementation of Military
                 Health System Governance Reform,” the Deputy Secretary of Defense emphasized
                 on the responsibility for shared services, functions, and activities of the MHS and
                 other common clinical and business processes. The Deputy Secretary of Defense
                 further stated that:

                            In doing so, we must attain greater integration of our direct and
                            purchased healthcare delivery systems, essential to accomplishing
                            the quadruple aim of the MHS: to assure medical readiness,
                            improve the health of our people, enhance the experience of care,
                            and lower our healthcare costs.

                 Although the donor, the transfusion, and Theater Blood IT capabilities are managed
                 by the PEO(DHCS), duplicate work may be present when using stand‑alone
                 IT capabilities to manage the data. As indicated by a PEO(DHCS)
                 official, a technician would have to access more than one IT           Duplicate
                 capability to acquire information about a patient and input          work may be
                 it in another IT capability to register the patient in both          present when
                                                                                    using stand‑alone
                 blood product management IT capabilities. For example,             IT capabilities to
                 this would occur when military personnel (patient) who                manage the
                 donated blood required a blood transfusion. As a result,                 data.
                 officials would maximize the Department’s return on investment
                 by setting up an interface that would connect the IT capabilities and enable data
                 sharing among these capabilities. This would also save the technicians time
                 and streamline patient registration and blood product management processes
                 by reusing accessible data rather than recreating it; therefore, achieving
                 better efficiencies.

                          The         Additionally, the PEO(DHCS) officials could not provide all
                      PEO(DHCS)         of the known costs for the proposed DoD blood product IT
                    officials could      capabilities. According to officials, the estimated costs
                   not provide all of
                 the known costs for     to phase‑out DBSS and the known life‑cycle costs for the
                  the proposed DoD       IT blood products IT management capabilities totaled
                   blood product IT      $289 million. Please see Table 1 for a breakdown of the
                     capabilities.
                                      known costs provided by the PEO(DHCS) officials.




14 │ DODIG-2015-008
                                                                                                                                   Finding B



Table 1. Total Known Costs of Portfolio
                      IT Blood Product                                      Estimated Costs (in millions)
                         Transfusion                                                       $122.3
                            Donor                                                          $123.2
                       Theater Blood                                                   Unknown1
                             DBSS                                                           $43.52
                             Total                                                         $289.0
1
    Officials could not provide the estimated life‑cycle costs.
2
    This amount represents the FY 2011 through FY 2015 estimated costs to phase‑out DBSS.


By having three, stand-alone, DoD blood product IT capabilities, the PEO(DHCS) and
the CAE for DHA may have missed the opportunity to leverage IT efficiencies that
could have potentially increased the Department’s return on investment.

Interface of DoD Blood Product Information
Technology Capabilities
According to PEO(DHCS) and ASBPO officials, they did not identify an operational
need to have the IT blood products interface with each other. However, these IT
products all provide blood management functions and capabilities. For example,
the transfusion and Theater Blood9 both track the inventory levels, availability of
all blood products, test results of blood products, results of pre‑transfusion, and
compatibility tests. The donor and Theater Blood also have the ability to track
blood products and document donors by blood types. The transfusion and donor
systems have the capability of patient registrations. As a result, the Department
could achieve better efficiencies if these IT capabilities shared information or
interface as part of an enterprise DoD blood product solution. This could also
streamline ASBP’s mission to provide quality blood products and services for all
worldwide customers in peace and war.




	9	
      Theater Blood functions and capabilities mentioned in this section were taken from PEO(DHCS) officials’ statements.




                                                                                                                            DODIG-2015-008 │ 15
Finding B



                             The             As a result, the PEO(DHCS) and the CAE for DHA did
                        PEO(DHCS)              not implement a joint interoperability strategy, which
                      and the CAE for            could result in delivering inefficient and ineffective
                  DHA did not implement
                  a joint interoperability        blood product IT capabilities to the warfighter.
               strategy, which could result        Therefore, the PEO(DHCS) and the CAE for DHA
               in delivering inefficient and       should assess EBMS (donor and transfusion systems),
                ineffective blood product         Theater Blood, and any other DoD blood product
                    information system
                                                  management IT capabilities’ processes, functions,
                     capabilities to the
                        warfighter.            and capabilities before reaching a Milestone Decision
                                             for the donor system. The PEO(DHCS) and the CAE for
                                          DHA should then evaluate how the DoD blood product IT
                 management capabilities would benefit from being interoperable as required by DoD
                 Instruction 8115.02. Throughout this process, the PEO(DHCS) and the CAE for DHA
                 should identify and document any opportunities for efficiencies and develop a plan of
                 actions and milestones to implement the potential new strategy.


                 Management Actions Taken on the Transfusion System
                 Although the CAE approved the transfusion system to enter into the business
                 capability lifecycle acquisition business model at milestone C on July 9, 2013, he
                 did not initially approve the Analysis of Alternatives, the Acquisition Strategy, the
                 Acquisition Program Baseline, and the Life Cycle Sustainment Plan, as required
                 by DoD Instruction 5000.02. However, based on our audit, PEO(DHCS) officials
                 provided the approved Acquisition Program Baseline and Business Case Analysis on
                 February 5, 2014.10


                 Management Comments on Background and Finding B
                 and Our Response
                 The Director, DHA, provided the following comments related to the Background
                 and Finding B. For the full text of the Director’s technical comments, see the
                 Management Comments section of the report. The Director requested that we
                 replace any reference to “systems” with the word “capabilities” when referring to
                 the donor system, transfusion system, and Theater Blood capability throughout
                 the Background and Finding B sections. The Director explained that it would
                 be inaccurate for two reasons. First, the Theater Blood capability is not a
                 system or application but a capability under the Theater Medical Data Store and
                 Medical Situational Awareness in Theater application within the Theater Medical
                 Information Program–Joint information system. Secondly, by calling it a system


                 	10	
                        The Business Case Analysis included the Analysis of Alternatives as well as the summaries of the Acquisition Strategy and
                        Life Cycle Sustainment Plan.




16 │ DODIG-2015-008
                                                                                                   Finding B



the Theater Blood capability could also be perceived as a stand-alone system. Also,
the Director requested that we change the title of Finding B to “DoD Management
of Blood Products Information Systems May Have Missed Opportunities to Leverage
Efficiencies” because the finding’s discussion did not show that specific inefficiencies were
discovered, and implementation of recommendation will determine whether efficiencies
can be achieved.

Our Response
For accuracy and consistency in the Report, we replaced any reference to
“application” with “capability” when referring to Theater Blood capability. We
also replaced “systems” with “capability” when referring to the donor system,
transfusion system, and the Theater Blood capability. Additionally, we changed the
title of Finding B to: “DoD Management of Blood Products Information Technology
Capabilities May Have Missed Opportunities to Leverage Efficiencies.”


Recommendations, Management Comments, and
Our Response
Recommendation B
We recommend that prior to reaching a Milestone Decision for the Blood
Donor Management System, the Component Acquisition Executive for the
Defense Health Agency assess the Enterprise Blood Management System,
Theater Blood capability, and any other DoD blood product information
technology capabilities’ processes, functions, and capabilities to determine
whether efficiencies could be achieved by managing as integral parts
of a net‑centric interoperable information technology portfolio. This
assessment should:

      1.	 Evaluate how the DoD blood product information technology
          capabilities would benefit from being interoperable as an information
          technology portfolio.
     2.	 Identify and document opportunities for efficiencies throughout
         the process among the DoD blood product information technology
         management capabilities.
      3.	 Develop a plan of actions and milestones to implement the revised
          information technology portfolio interoperability strategy.




                                                                                            DODIG-2015-008 │ 17
Finding B



                 Director, Defense Health Agency Comments
                 The Director, DHA, responding for the CAE for DHA, agreed, stating that the CAE
                 agreed to assess DoD blood management capabilities and determine whether DHA
                 could leverage any potential benefits of the interoperability. The Director indicated
                 that this evaluation was expected to be conducted in the third quarter of FY 2015.

                 Our Response
                 The response from the Director addressed all specifics of the recommendations, and no
                 further comments are required.




18 │ DODIG-2015-008
                                                                                          Appendix




Appendix
Scope and Methodology
We conducted this performance audit from August 2013 through August 2014
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

For Recommendations A.4 and B.3.a of DoD OIG Report No. D‑2002‑010, we
collected, reviewed, and analyzed acquisition related documents for Defense
Blood Standard System and Enterprise Blood Management System. For example,
among the documents were the transfusion system Acquisition Decision
Memorandum, Business Case Analysis, Acquisition Program Baseline, Life Cycle
Sustainment Plan, Test and Evaluation Master Plan, and system testing documents
for the early operational assessment and operations testing. Additionally, we
reviewed available donor system documentation related to the system interface,
requirements, and design.

For Recommendation B.3.b of DoD OIGReport No. D‑2002‑010, the Program
Executive Officer for the Defense Health Clinical Systems officials replaced the
Theater Defense Blood Standard System with the Theater Blood capability,
not the Enterprise Blood Management System. This action met the intent of
the recommendation to find another means to meet the needs of the unified
commands for a blood management capability. However, we did not evaluate the
implementation of the Theater Blood capability since it was outside the scope of the
announced audit objective.

We compared the acquisition documents and testing results to applicable
acquisition regulations, such as:

     •	 DoD Instruction 4630.8, “Procedures for Interoperability and
        Supportability of Information Technology and National Security Systems”
     •	 DoD Directive 5000.01, “The Defense Acquisition System”
     •	 DoD Instruction 5000.02, “Operation of the Defense Acquisition System”
     •	 DoD Directive 8115.01, “Information Technology Portfolio Management”
     •	 DoD Instruction 8115.02, “Information Technology Portfolio
        Management Implementation”




                                                                                   DODIG-2015-008 │ 19
Appendix



                      •	 DoD Instruction 8510.01, “DoD Information Assurance Certification and
                         Accreditation Process”
                      •	 Defense Acquisition Guidebook

                 We also interviewed representatives from:

                      •	 Component Acquisition Executive for Defense Health Agency;
                      •	 Program Executive Officer for the Defense Health Clinical Systems;
                      •	 TRICARE Management Activity Office of the Chief Information Officer,
                         Deployment and Readiness Systems;
                      •	 Armed Services Blood Program Office;
                      •	 Army, Navy, and Air Force blood program offices; and
                      •	 Walter Reed National Military Medical Center Blood Services.

                 Use of Computer‑Processed Data
                 We did not use computer‑processed data to perform this audit.


                 Use of Technical Assistance
                 We did not use technical assistance for this audit.


                 Prior Coverage
                 During the last 5 years, the DoD Office of Inspector General (DoD IG) issued
                 one report related to the Defense Blood Standard System. Unrestricted DoD IG
                 reports can be accessed at http://www.dodig.mil/pubs/index.cfm.

                 DoD IG
                 Report No. D‑2002‑010, “Armed Services Blood Program Defense Blood Standard
                 System,” October 22, 2001




20 │ DODIG-2015-008
                        Management Comments




Management Comments
Defense Health Agency
                            Final Report
                            Reference




                              DODIG-2015-008 │ 21
Management Comments



                 Defense Health Agency (cont’d)
                                                  Final Report
                                                  Reference




22 │ DODIG-2015-008
                                 Management Comments



Defense Health Agency (cont’d)
                                     Final Report
                                     Reference



                                     Replaced
                                     throughout the
                                     Report




                                     Revised Background
                                     Section on Page 2




                                       DODIG-2015-008 │ 23
Management Comments



                 Defense Health Agency (cont’d)


                                                  Replaced
                                                  throughout
                                                  Finding B




                                                  Added Footnote in
                                                  Finding A on Page 8




24 │ DODIG-2015-008
                                                                                                                               Glossary




Glossary
Application – A computer program that accomplishes a specific task for the user.

Capability – The ability to execute a specified course of action.

Composite Health Care System – The automated medical information system
supporting all military treatment facilities worldwide in providing comprehensive
health care to military personnel, retirees, and their dependents. Specifically, it
provides the Services with patient facility data management and communication
capabilities such as patient administration, reporting, scheduling, laboratory
orders, quality control, and medication processing.11

Deployment – Fielding a weapon system by placing it into operational use with
units in the field/fleet.

Information Technology (IT) – Any equipment, or interconnected system or
subsystem of equipment, which is used in the interchange, transmission, or
reception of data or information.

Information Technology Portfolio – A grouping of IT investments by capability
to accomplish a specific functional goal, objective, or mission outcome. An IT
investment is the development and sustainment resources needed in support of IT
or IT‑related initiatives. Resources include research, development, test, and various
types of appropriations, such as procurement appropriations.

Interface – Computer hardware or software connections that allow two or more IT
components to share data and communicate with each other.

Interoperability – The ability of systems to exchange data, information, or
materiel and services that enable them to operate effectively together.

Joint Medical Asset Repository – A data repository designed to integrate
information from various medical logistics systems throughout DoD into a centrally
managed data warehouse that gives users the ability to see the location and status
of medical supplies and equipment whether in storage, in transit, or in theater.12




	11	
       This information is from Appendix C of DoD OIG Report No. D‑2002‑010, “Armed Services Blood Program Defense Blood
       Standard System,” October 22, 2001.
	12	
       This information is from Appendix C of DoD OIG Report No. D‑2002‑010, “Armed Services Blood Program Defense Blood
       Standard System,” October 22, 2001.




                                                                                                                       DODIG-2015-008 │ 25
Glossary



                 Materiel Solution – The correction of a deficiency, satisfaction of a capability gap,
                 or incorporation of new technology that results in the development, acquisition,
                 procurement, or fielding of a new item necessary to equip, operate, maintain,
                 and support military activities without disruption as to its application for
                 administrative or combat purposes.

                 Materiel Development Decision – The decision that a new product is needed and
                 activities to analyze alternative solutions will occur.

                 Medical Situational Awareness in Theater – A web‑based application through
                 Secret Internet Protocol Router Network, which combines information from
                 multiple databases to provide worldwide asset visibility and decision support for
                 Combatant Commands and Joint Task Force Commanders’ medical staff.

                 Net‑centricity – Robust, globally interconnected network environment in which
                 data is shared timely and seamlessly among users, applications, and platforms.
                 Net‑centricity enables improved military situational awareness and significantly
                 shortened decision‑making cycles.

                 Real Time – The actual time in which a process under computer control occurs.

                 Stand-alone – A computer or other device that is able to function independently of
                 other devices.

                 Theater Medical Data Store – It provides web‑based access to service member
                 information collected at theater‑based medical treatment facilities using
                 other systems.




26 │ DODIG-2015-008
                                                                               Acronyms and Abbreviations




Acronyms and Abbreviations
      ASBP Armed Services Blood Program
    ASBPO Armed Services Blood Program Office
   ASD(HA) Assistant Secretary of Defense (Health Affairs)
       CAE Component Acquisition Executive
      CHCS Composite Health Care System
      DBSS Defense Blood Standard System
       DHA Defense Health Agency
      EBMS Enterprise Blood Management System
       FDA Food and Drug Administration
         IT Information Technology
      JMAR Joint Medical Asset Repository
       MHS Military Health System
 PEO(DHCS) Program Executive Officer for the Defense Health Clinical Systems




                                                                                          DODIG-2015-008 │ 27
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
